App. 1
Department of Health & Human Services
DHHS
Division of Behavioral Health
State of Nebraska
NEBRASKA
Pete Ricketts, Governor
May 10, 2016
The Honorable Peter C. Bataillon
Douglas County District Court
1701 Farnam St.
Omaha, NE 68183-001
RE:
CASE NO.:

EXHIBIT
56
6-7-16 AS

JENKINS, NIKKO
CR13-2768

Your Honor:
Nikko Jenkins is a 29-year-old man, who was ordered
to undergo a competency evaluation for sentencing on
four counts of First Degree Murder, four counts of Use
of a Deadly Weapon to Commit a Felony, and four
counts of being a Felon in Possession of a Firearm, in
relation to three separate incidents that occurred in a
two week period in August 2013.
Given the nature of this evaluation, additional background may be pertinent as the competency to stand
trial issue was addressed during earlier phases of the
proceedings. He was found competent to stand trial in
early 2014. Mr. Jenkins represented himself during the
trial phase and pled no contest to the charges listed
above. He was convicted on 04/08/2014 and was reappointed counsel to represent him during the sentencing phase. In May 2014, Mr. Jenkins’ attorneys

App. 2
raised the question of competence in regards to sentencing. Additional competency evaluations were completed by Drs. Bruce Gutnik, Y. Scott Moore, and Klaus
Hartmann, although resulted in differing opinions. Ultimately, Mr. Jenkins was found incompetent to proceed with the sentencing phase of a death penalty case.
Lincoln Regional Center (LRC) personnel engaged in
competency restoration efforts from August 2014 –
February 2015, at which time an opinion was offered
that Mr. Jenkins was competent to proceed. Shortly
thereafter, the Court issued an order finding Mr. Jenkins competent. In May 2015 and December 2015, Mr.
Jenkins was re-evaluated by Dr. Gutnik, who opined
that the defendant was not competent. Following Dr.
Gutnik’s December 2015 evaluation, the court ordered
LRC personnel to conduct the current evaluation.
SOURCES OF INFORMATION
•

Available Douglas County District Court records

•

Available Methodist Richard Young records;
dated 02/03/1995 - 02/24/1995

•

Available Nebraska Department of Correctional Services (NDCS) records; dated
11/17/2003 -04/21/2016
o

•

Includes notes from Premier Psychiatric
Group from 04/14/2015 – 03/17/2016

Available Douglas County Corrections (DCC)
records; dated 02/13/2010 - 11/13/2013

App. 3
•

Competency and mental status at time of offense evaluation; Dr. Y. Scott Moore; dated
07/20/2010

•

Letter from Mr. Jenkins to the ‘Director of
LRC,’ stamped as received on 05/31/2012

•

Letter from Mr. Jenkins to Rachel Johnson,
Religious Coordinator at the Lincoln Regional
Center, stamped as received on 06/06/2012

•

Omaha Police Department audio records;
dated 08/29/2013 and 09/03/2013

•

Competency evaluations; Dr. Bruce Gutnik;
dated 11/08/2013, 05/07/2014, 05/04/2015,
12/07/2015

•

Competency evaluation; Dr. Y. Scott Moore;
dated 12/22/2013

•

Mental status at time of offense evaluation;
Dr. Bruce Gutnik; dated 02/06/2014

•

Competency evaluation; Dr. Y. Scott Moore
and Dr. Klaus Hartmann; dated 06/19/2014

•

Lincoln Regional Center (LRC) records; dated
08/15/2014 to 02/16/2015
o

Includes 02/11/2015 competency opinion
authored by the undersigned

•

Lancaster County Court filings from Mr. Jenkins; dated 04/28/2014 and 08/26/2014

•

Letter from Mr. Jenkins to the Douglas
County Attorney’s Office; dated 10/01/2014

App. 4
•

Douglas County District Court motions from
Mr. Jenkins; dated 01/30/2015; 10/14/2015;
11/09/2015; 11/30/2015; 12/14/2015; 12/21/2015;
04/11/2016 (no file stamp date)

•

Letter from Mr. Jenkins to Omaha Police Department; stamped as received on 12/10/2015

•

Letter from Mr. Jenkins to Jennifer Tinsley,
Douglas County Sheriff ’s Department; dated
12/25/2015

•

Audio recording of voice message left by Mr.
Jenkins on a telephone number for the Douglas County Election Commissioner’s Office (in
an apparent mistaken attempt to contact the
Omaha World Herald); date listed as
12/28/2015

Methods of evaluation:
•

Sessions with the undersigned evaluators
(01/06/2016, 03/16/2016; 04/21/2016)

•

Communication with Mr. Tom Riley, Defense
Attorney (02/10/2016)

•

Communication with Ms. Brenda Beadle,
Deputy County Attorney (12/28/2016)

LIMITS OF CONFIDENTIALITY
Mr. Jenkins was notified of the limits of confidentiality
and the purpose of the evaluation. Specifically, he was
informed that the Court ordered a competency evaluation for sentencing. He was informed that any

App. 5
information he disclosed could be included in a written
report that would be distributed to the Court, his attorney, and the County Attorney. He was informed that
he could choose not to divulge information that he
wanted to be kept confidential. He indicated he understood the limitations of confidentiality as he was able
to articulate key concepts of the limitations in his own
words.
MENTAL HEALTH HISTORY
Mr. Jenkins has interacted with mental health professionals at various facilities since the age of 8. Mental
health professionals have consistently described his
chaotic upbringing with exposure to family violence,
history of substance abuse, and conduct problems. Records consistently describe Mr. Jenkins’ exhibition of
antisocial personality characteristics as an adult.
However, there has been disagreement amongst mental health professionals regarding whether Mr. Jenkins has exhibited symptoms of major mood or
psychotic disorders. Some mental health professionals
viewed his reported symptoms as characteristic of bipolar or psychotic disorders, while other mental health
professionals considered Mr. Jenkins’ reported symptoms as malingered for secondary gain. These differing
interpretations of Mr. Jenkins’ reported symptoms
were also evidenced in the multiple competency evaluations following the charges currently pending sentencing.

App. 6
As a result of these different conceptualizations, efforts
to conduct a thorough differential diagnosis were undertaken as part of prior competency restoration treatment in August 2014 – February 2015 to provide
clarification for the Court. That detailed mental health
history is detailed in the 02/11/2015 opinion authored
by the undersigned, but a synopsis of the information
is included in a chart attached to this report. A summary of the last year’s events is also provided below to
establish the basis for the current opinion.
Several patterns emerged during the August 2014 –
February 2015 course of competency restoration with
LRC. The details of those observations are outlined in
the 02/11/2015 opinion to the court, but are briefly
summarized here to offer relevant background for the
current opinion. Through the duration of that course of
treatment, Mr. Jenkins was predominantly focused on
his placement (within a correctional facility; in segregation) and his perceptions that he was mistreated by
various agencies, systems, and persons (e.g., NDCS,
District Court, LRC). He repeatedly asserted he experienced mental health problems, but only offered labels
for his purported difficulties and was unable to describe relevant subjective experiences or details. He
claimed to engage in seemingly bizarre behaviors (e.g.,
snorting/drinking his semen), although he attributed
these behaviors to his belief that it would enhance his
masculinity and they were unrelated to the legal proceedings. Similarly, while actual self-harm was not a
prominent problem during competency restoration
treatment, he frequently made threats to harm himself

App. 7
or others. These statements were always in the context
of attempts to control others’ actions or perceptions of
him (e.g., move units, appear “insane,” influence the
findings of the competency evaluation). Although Mr.
Jenkins cited a “conspiracy” against him in his legal
case, his reasoning for his belief was not delusional in
nature. Furthermore, he contradictorily stated his purported symptoms did not distress him, while at the
same time accused others of being responsible for his
“psychological and emotional deterioration.” Despite
his assertions of such mental deterioration, the defendant himself admitted that such deterioration had not
taken place due to his efforts to maintain safety. It
should be noted that the undersigned did not witness
such deterioration during this competency restoration
time period.
During competency restoration treatment, Mr. Jenkins
refused to engage in structured assessments and interviews designed to assess his functioning, citing concerns that results of such assessments would be used
against him. Over the course of time, through frequent
sessions (up to 5 times/week), it became clear that Mr.
Jenkins’ self-report of symptoms was not validated by
observational data. There was no indication his functioning was adversely affected by psychotic or major
mood symptoms, as would have been expected if he
were experiencing such symptoms. Despite his selfreport of experiencing intrusive symptoms, the content
of his thought was almost always focused on legal maneuvers, his perceived mistreatment and associated
complaints, and self-aggrandizing in nature. Moreover,

App. 8
his focus on obtaining certain diagnoses and prescriptions for antipsychotic medication appeared to be motivated by secondary gain, and he consistently rejected
treatment when it was offered. His stance was relatively consistent throughout the course of treatment –
in that he would demand something (e.g., item, placement, treatment, diagnosis) and resort to threats, manipulation, or intimidation in an effort to obtain the
outcome he, desired. Eventually, Mr. Jenkins voiced a
desire to be found competent.
Ultimately, Mr. Jenkins was found competent to proceed in February 2015, following the competency restoration efforts of the undersigned. In May 2015, Dr.
Bruce Gutnik re-evaluated Mr. Jenkins for competency
for sentencing. He opined that Mr. Jenkins remained
psychotic and appeared to have deteriorated since he
saw him the year prior. He described Mr. Jenkins as
difficult to re-direct from talk about his purported hallucinations and delusions of demons and Apophis. He
described his thinking as tangential, with loose associations and pressured speech. In regards to understanding his legal situation, Mr. Jenkins reported to
Dr. Gutnik he did not understand that a plea of no contest was essentially a guilty plea, and asserted that he
was not responsible for the murders. Dr. Gutnik reevaluated Mr. Jenkins in December 2015, and again
opined that he was incompetent to proceed and suffered from hypomania and severe psychotic symptoms.
It is unclear from Dr. Gutnik’s May and December 2015
reports if he had access to the February 2015 evaluation authored by the undersigned or was aware of

App. 9
numerous professionals raising concern about malingering in the past.
According to NDCS records, from March 2015 – April
2016, Mr. Jenkins engaged in at least 18 acts of selfharming behavior, additional threats to engage in selfharm, and physical and verbal aggression towards
NDCS staff. Some episodes of self-harm required sutures, although records indicate that none of the lacerations required emergent medical care and were able
to be attended to on site, within the NDCS facility.
NDCS records indicate that Mr. Jenkins carved numbers and words into his forehead and stomach and lacerated body parts such as his face, tongue, and penis.
Notable recent events include Mr. Jenkins’ use of a
NDCS staffs badge to cut his penis. According to Mr.
Jenkins, he obtained the badge on 01/18/2016 and kept
the badge in his possession until 01/26/2016 when he
cut his penis. He also cut his penis at least two additional times in February 2016. On 02/24/2016 Mr. Jenkins stole keys from staff, broke the keys, swallowed
pieces of the keys, and kept a handcuff key hidden in
his mouth before returning the key to staff on the evening of 02/25/2016. Although he recently abstained from
self-harm behavior for over 8 weeks, Mr. Jenkins expressed his intent to self-harm during his court hearing. For example, on 03/23/2016, Mr. Jenkins told his
therapist, “It will be different when I do it in front of
the cameras and all the reporters and the Judge. And
will show I am insane. And what you all have created
by keeping me here like this. They always put this
shock thing on me, but I am going to do it.”

App. 10
In addition to self-harming behavior (non-suicidal in
nature), Mr. Jenkins has made comments about killing
himself or wanting to die. NDCS records from September 2015 and December 2015 describe instances in
which Mr. Jenkins tied a jumpsuit and a sweatshirt to
the bars of his window, raising staff concern about a
possible suicide attempt. In January 2016, Mr. Jenkins
attempted to hang himself on a chain link fence at the
Nebraska State Penitentiary (NSP). When describing
the incident, staff indicated that Mr. Jenkins was
“holding onto the chain with his hands, keeping it from
completely tightening around his neck,” suggesting
that this was not an actual attempt to end his life.
However, Mr. Jenkins stated, “I attempted to kill myself by hanging myself on this date because I am tired
of being persecuted . . . Due to my own psychological,
physical, and emotional deterioration I do not want to
live any more, I want to die.” In February 2016, NSP
staff reported that Mr. Jenkins was “acting suspicious”
with a waist chain around his neck and appeared to be
looking for a place to hang himself.
When discussing his self-harm behaviors with NDCS
staff, Mr. Jenkins endorsed hearing commands from
voices of Apophis, Satan, and demons. For example, following his act of self-harm on 01/26/2016 Mr. Jenkins
stated, “I hid that badge in my rectum. That is my official testimony. I had orders from gods to sacrifice my
blood.” NDCS mental health notes repeatedly indicate
that Mr. Jenkins has never appeared to be responding
to internal stimuli during his weekly therapy sessions
and more frequent crisis intervention sessions, even

App. 11
though he has reported hearing voices constantly.
However, a July 2015 Premier Psychiatric Group note
(Dr. Tayo Obatusin) states, “As at time [sic]. The patient needs higher level of care. He is grossly psychotic,
delusional and unable to care for self. He may need
some Haldol dec or Abilifiy Maintenna shot.” From
April – August 2015, Premier Psychiatric (Dr. Obatusin) notes list a diagnosis of Schizoaffective Disorder,
Bipolar Type, although those notes also indicate that
Mr. Jenkins was self-harming “with the intention to
get out of isolation.” With the exception of the July
2015 note, generally Premier Psychiatric Group notes
indicate Mr. Jenkins does not consistently endorse psychotic symptoms. One practitioner stated, “His psychotic symptoms have never been consistently
reported, in some interviews they weren’t mentioned
at all, and at other times it was inserted as it [sic] was
almost an afterthought” (3/17/16). In October 2015,
Premier Psychiatric notes indicate Mr. Jenkins continued to report suffering from “5 psychotic breaks” in the
previous month, but was not able to provide details or
examples of his symptoms. Furthermore, recent Premier Psychiatric notes indicate that Mr. Jenkins’ reported mood fluctuations occurred in relationship to
situational stress, and he did not exhibit symptoms of
depression. In October 2015, Schizoaffective Disorder
was ruled out as a diagnosis, and recent notes indicate
that malingering was a possibility.
At times, Mr. Jenkins suggested he receives relief from
stress through self-harming behaviors. NDCS mental
health records document several statements made by

App. 12
Mr. Jenkins in which he suggests self-harm behaviors
provide a level of stress relief such as, “Slicing myself
is the best way to deal with my stress,” (CMHN,
6/25/15) and “[Self-harm] helps. Really helps me, when
I am feeling anxious. Or agitated. I get that rush of endorphins in my brain, and I just feel better, feel more
calm, feel more in control” (CMHN, 7/31/15). After
swallowing keys on 02/24/2016, Mr. Jenkins blamed his
therapist indicating that he had become upset earlier
that day when his therapist set therapeutic boundaries and discontinued a session. Mr. Jenkins told his
therapist, “You walked out on me,” and “You know I
have abandonment issues.” He also described experiencing feelings of sadness, depression, hopelessness,
and fear prior to the incident.
While Mr. Jenkins generally indicated he hears voices
all the time, NDCS records contain notable exceptions
including the following statements made by Mr. Jenkins: “I am not psychotic all the time. Just some times,”
(Chronological Mental Health Note [CMHN], 8/14/15),
[He hears voices] “when staff don’t do what I want
them to do, like with my mail. And if people make me
mad” (CMHN, 8/14/15), and “In LCC I had no psychotic
episodes. They showed concern for my well-being and
no psychotic episodes occurred. If I see people care for
my well-being then I have no psychotic episodes. I want
you to talk to other people about this to get me moved”
(CMHN, 1/13/16). Finally, NDCS records from June
2015 document Mr. Jenkins stating, “That’s the reason
I’m doing all this crazy shit, so I can use the insanity
defense.” The author of the note then writes, “At this

App. 13
point, inmate Jenkins realized he was telling me this
information, and then stated, ‘I mean I do everything
the voices in my head say, Apophis and that.’ ”
NDCS records detail the defendant’s statements conveying that his behaviors are motivated by secondary
gain. According to a Premier Psychiatric note from August 2015, when Mr. Jenkins was asked about behaving in ways to achieve secondary gain, he responded, “I
do that sometimes. Last week I forced a staff to get me
coffee after I threatened to cut myself with a razor
blade. . . . She got me the coffee.” Throughout April
2015 – December 2015, Mr. Jenkins repeatedly suggested his self-harm behavior would cease if he received something he desired or that he would engage
in self-harm behavior if he did not receive something
he wanted. Before self-harming with staffs badge in
January 2016, Mr. Jenkins demanded more food in exchange for his return of the badge; when food was not
provided, he cut his penis with the badge. In February
2016, Mr. Jenkins refused direction to leave the shower
and stated that staff would need to “spray” him. Afterwards, he indicated he needed use of force documents
for his court case.
In regards to aggression towards others, Mr. Jenkins
hit and threw bodily fluids at staff. He made homicidal
threats such as, “If I wanted to I could have dragged [a
staff member] into my room, shut the door, and ate his
fucking intestines,” and “As soon as I get my number
and they transfer me to Tecumseh I’m gonna have direct access to ya’ll and I’m gonna go back to my cell and
make a nice, long knife. Then I’m going to use it to kill

App. 14
three to five of you all guards.” Mr. Jenkins also threatened individuals involved in his case, including the
major actors in the court proceedings. In an NDCS incident report (dated 2/23/16) NSP staff wrote, “[Mr.
Jenkins] said ‘When I get out I’m going to hunt down
[individuals involved with his case] and kill them and
their families. If they have grandkids or kids, I’m going
to kill them right in front of them because I warned
them that I am a very scary being.”
Mr. Jenkins successfully followed a behavioral plan to
abstain from self-harm and aggression towards others
at various times over the course of the last year. In October 2015, Mr. Jenkins did not engage in any acts of
self-harm and was the subject of fewer misconduct reports. However, acts of self-harm and the number of
misconduct reports spiked in November 2015. According to NDCS records, throughout November, December
2015, and early January 2016, Mr. Jenkins made statements that conveyed his negative behaviors were related to his legal strategy. For example, after an
instance in which Mr. Jenkins was restrained, he
stated, “I accomplished what I wanted, this documentation will be essential in my case to show my incompetency. This will display that I am so insane that you
had to strap me down (11/28/15).” In January 2016, he
stated, “Normal people don’t do that [in reference to
snorting/drinking semen and urine]. And that proves I
am psychotic and need meds (1/7/16).” It should be
noted that while Mr. Jenkins reports engaging in these
unusual behaviors, NDCS records do not indicate that
staff members have observed such actions. He also

App. 15
made statements such as, “I have assaulted 6 staff
members during Thanksgiving weekend. I wish to
have charges brought against me in the Lancaster
County District Court. If I must write to the State Patrol myself, I will,” and “I feel better that they are obligated to get me a new trial and charges. I will now get
what I want.” Notably, in late December, Mr. Jenkins
confessed to additional crimes to NSP staff and to a
Douglas County Sheriff Detective and media contacts,
requesting to be charged for new offenses.
Although NDCS mental health records repeatedly note
that Mr. Jenkins does not respond to internal stimuli,
other difficulties are occasionally characterized by
mental health staff. His therapist has noted “Mr. Jenkins refers to delusional material or auditory experiences to a greater degree when presenting as
emotionally dysregulated. When he reports feeling
calm and is less reactive, [his] reports containing delusional material or auditory experiences occur less often
and with less intensity” (CMHN, 12/23/15). Additionally, his therapist has identified the possibility that Mr.
Jenkins experiences increases in anxiety related to his
legal situation. Mr. Jenkins reportedly experiences
some sleep difficulties, such as waking frequently
throughout the night. While he labels certain behaviors as “mania,” mental health notes indicate he consistently is able to slow and quiet his speech when
prompted, and his presentation is not reflective of a
true manic episode.
At this time, his psychiatric provider (Premier Psychiatric Group) lists Mr. Jenkins’ diagnoses as Rule Out

App. 16
Unspecified Depressive Disorder (in relation to feelings of sadness and depression) and Antisocial, Narcissistic, and Borderline Personality Disorders. Although
he demanded prescriptions for reported mood and psychotic symptoms, he generally refused to take medication. Most recently, Mr. Jenkins was prescribed an
antidepressant (Prozac) to treat his reported symptoms of depression. After “cheeking” the medication,
Mr. Jenkins was required to take the medication in liquid form, which he claimed hurt his throat. The medication was subsequently discontinued. He has
requested Depakote (mood stabilizer), but the Premier
Psychiatric Group provider did not prescribe it, noting
“I tried to reinforce that the medication he is requesting is not the recommended [treatment] for his current
reported mood/symptom, but he again interrupted, and
said, ‘I am only here to ask you for Depakote, and if you
are not going to prescribe that for me, I am going to
leave’ (3/10/16).”
PAST PSYCHOLOGICAL TESTING
In August 2014, during the prior course of treatment
to restore competency, Mr. Jenkins was administered
the Structured Interview of Reported Symptoms, 2nd
Edition (SIRS-2), an instrument designed to assess endorsement of a range of common and less common
symptoms of mental illness. On the SIRS-2, Mr. Jenkins obtained a pattern of markedly elevated subscales that is strongly characteristic of an individual
feigning a mental disorder. Out of 8 primary scales, Mr.
Jenkins’ scores on 4 of those scales were in the definite

App. 17
feigning range (above the 98th percentile when compared to a clinical group), and an additional 3 primary
scales were in the probable feigning range. This pattern is rarely observed in examinees with genuine disorders that endeavor to present themselves accurately.
Specifically, Mr. Jenkins reported a high proportion of
unusual symptoms on two separate scales that are typically observed in feigners, but not in genuine patients.
He also obtained an elevation on a sub-scale for improbable or absurd symptoms that, by definition, are
outlandish and almost never observed in clinical populations. Mr. Jenkins reported an unexpectedly high
proportion of symptoms associated with a major mental disorder. This proportion is not typically characteristic of patients with only genuine disorders.
Furthermore, he reported a higher-than-expected proportion of symptoms that were occurring with extreme
intensity, which is consistent with individuals fabricating or exaggerating their symptom presentation.
The Minnesota Multiphasic Personality Inventory – 2
(MMPI-2), a well validated measure of psychopathology and personality functioning, was repeatedly attempted during that same time frame (August –
December 2014). Administration of the Millon Clinical
Multiaxial Inventory – III (MCMIIII), an inventory designed to identify emotional, behavioral, and interpersonal difficulties, was also attempted in December
2014. Mr. Jenkins refused to complete those instruments despite each of his concerns being addressed.
In early 2016, Mr. Jenkins completed the SIMS (Structured Inventory of Malingered Symptomatology) with

App. 18
NDCS personnel. The results of that test also suggested feigning of psychiatric symptoms. Specifically,
he had an elevation on a scale for bizarre or unusual
psychotic symptoms not typically present in genuine
psychotic disorders. Mr. Jenkins had an elevation on a
scale for atypical depression and anxiety symptoms.
He also endorsed a high number of items that are inconsistent and rarely occur in neurological disorders.
MENTAL STATUS EXAM
Mr. Jenkins was fully oriented throughout the evaluation sessions. Mr. Jenkins has visible tattoos covering
most of his face and neck, as well as some on his arms
and hands. Mr. Jenkins consistently presented with
good hygiene. In the past, Mr. Jenkins wore eyeglasses,
but he did not during the current evaluation as a result
of safety concerns and his recent use of sharp items to
self-harm. Nonetheless, his eye contact was appropriate, and it was clear he could see each person in the
room. Mr. Jenkins’ psychomotor activity was normal.
Any agitation noted was related to feelings of discontent about situational factors (namely his segregation
status and legal situation).
Mr. Jenkins has not displayed observable positive or
negative symptoms suggestive of a psychotic disorder
or symptoms. He was fully oriented with logical,
goal-oriented thought processes. There was no evidence of responding to internal stimuli, disorganized
thought processes, or loose associations. At times, Mr.
Jenkins labeled his experiences as “hallucinations” or

App. 19
“delusions” in reference to Apophis or engaging in
blood sacrifice rituals (i.e., self-harm), although these
remarks were infrequent and generally in the context
of his arguments that he is mentally ill and needs to
be removed from segregation. He consistently attended
to the evaluation and demonstrated behaviors that
were tied to reality-based motivators. He did not talk
of these reported psychotic experiences as if they were
at the forefront of his mind, but instead presented
them in a manner that appeared rehearsed and in relation to other demands (e.g., removed from segregation, placed in a psychiatric facility). His concerns were
solely about reality-based, situational concerns (e.g.,
his placement, privileges, legal situation).
Mr. Jenkins displayed a normal range of mood fluctuations (e.g., frustrated, angry, irritated, pleasant) appropriate to his circumstances, albeit sometimes with
exaggerated indignation or anger about perceived
slights. His affect was full and congruent with mood.
Mr. Jenkins talked at length about certain topics and
identified “racing, very fast, up and down, up and
down, up and down” thoughts; however there was no
evidence of racing thoughts. At times, he shifted the focus of the session, but this appeared to be an attempt
to control the discussion. He could generally be redirected back to previous topics or questions, and while
it was clear that he understood the questions. Mr. Jenkins did not display any difficulties with mood swings
or significant anxious or depressed mood. Mr. Jenkins
exhibited no difficulty with memory. Intellectual

App. 20
functioning appeared to be in the low average to average range.
BEHAVIORAL OBSERVATIONS
The undersigned evaluators met with Mr. Jenkins at
the Nebraska State Penitentiary (NSP) on three occasions in 2016: January 6, March 16, and April 21. Each
evaluation was conducted in a conference room on the
restrictive housing unit. During the evaluations on
January 6 and March 16, Mr. Jenkins was in restraints
and wore a spit sock, though he did not wear the spit
sock during the April session due to improvements in
his behavior. Correctional officers remained outside
the conference room door throughout the duration of
the evaluations.
For each session, Mr. Jenkins appeared to have an
agenda he wanted to discuss and tended to return to
his agenda when not specifically answering a question.
He attempted to control the conversation by providing
lengthy answers to the questions posed to him and demanding that evaluators write down specific statements he made. Mr. Jenkins frequently directed the
conversation toward his self-mutilation, “deteriorating” mental health, perceived mistreatment, frustration with placement in segregation, and complaints
about the legal system. Throughout sessions, Mr. Jenkins presented as intimidating, insulting, demanding,
and arrogant.
Mr. Jenkins enumerated the various self-harming incidents he engaged in over the last year, but described

App. 21
his goals and plans suggesting he is oriented to the future. He discussed lacerations to his penis, stating “I
carry out orders from the immortals.” He described
these commands as “audio commands” from Apophis,
Satan, and demons. At times, he reported that these
commands revolve around topics such as self-sacrifice,
while at other times he attributed his self-harm to
other motivators (e.g., change in placement). Mr. Jenkins stated, “If I give up on my body they will kill me”
and reported that he can “see the unseen and hear the
unheard.” When questioned regarding the specific nature of such commands, the defendant would often
shift topics.
Mr. Jenkins threatened to self-harm in the future and
made vague statements about the possibility of harming others. He made statements such as, “I’m gonna
mutilate my genitals and eat them – self-cannibalism.
I’m gonna do that in a few days,” and raised his voice,
“You know what I’m doing right? Gearing up for what’s
gonna happen later. I love getting myself in this manic
state. [Laughed loudly] It gets bloody. Real, real
bloody.” He indicated that he fulfills prophecies and
stated, “When I say it’s gonna happen, it’s gonna happen.” At no point during these comments did he reference experiencing command auditory hallucinations
and appeared to be attempting to shock the undersigned with the dramatic nature of his statements.
During the first session evaluators highlighted that
Mr. Jenkins historically was able to abstain from selfharm for long periods of time. He responded he had access to coping mechanisms in his cell in the past, but

App. 22
currently had nothing in his room that could assist
him. An evaluator emphasized that Mr. Jenkins has
successfully controlled his self-harm in the past even
when he was in isolation, but he refused to respond to
this discrepancy. As of the 04/21/2016 session, Mr. Jenkins went approximately 8 weeks without engaging in
self-harm behavior. However, he continued to insist he
was not “grounded in reality,” experiences “animalistic
rage,” and that lack of self-harm does not indicate he
“is stable and not living in altered psychotic reality.”
When asked for descriptions of his purported symptoms and experiences, Mr. Jenkins relied on labels utilizing medical and psychological terminology that did
not subjectively describe his experiences.
When Mr. Jenkins was pushed to describe specifically
what is problematic about his reported psychotic
symptoms, he paused for a lengthy period of time before stating, “I never said it was a problem. Society says
it’s a problem.” He described his ability to channel the
commands and again stated the experience was not
problematic. Although he endorsed experiencing auditory hallucinations, again Mr. Jenkins was unable to
provide details about his experience. He indicated that
he should not need to describe his experience of psychotic episodes because the evaluators are mental
health professionals who “should know” and “shouldn’t
have to ask.” He stated he uses terms like “psychotic
episode” because mental health professionals understand such terminology.
Mr. Jenkins reported feeling “paranoid,” which occurs
when he is out of his cell seemingly talking with other

App. 23
inmates or other people in routine fashion, while internally thinking about hurting those individuals. He described the belief that “everyone is going to kill me,
stab me, arrest me,” though this was clearly in the context of reality-based concerns based on prior experiences associated with a criminal and violent lifestyle.
When asked if violence is synonymous with psychosis,
Mr. Jenkins responded, “My violence comes under psychosis.” Additionally, Mr. Jenkins referred to himself as
a “man God,” a “phenomenon,” and a “genetic freak.”
When the undersigned attempted to discuss treatment
options and behavioral strategies to address his reported difficulties and complaints, Mr. Jenkins countered that the first step of treatment should be to
release him from segregation. In regards to psychotic
symptoms, he indicated that if he was removed from
segregation, his “psychotic symptoms would go away.”
Mr. Jenkins expressed frustration with LRC personnel
for not recognizing the “physical evidence of my deterioration.” Throughout the evaluations, Mr. Jenkins expressed his desire to be transferred to the Lincoln
Regional Center, although he struggled to identify
what purpose hospitalization would serve since he adamantly stated he does not require or take medication
for his condition despite his contradictory assertion
that he has “already proven I’m better on medications.”
He described varied reasons for refusing psychotropic
medications (i.e. distrust of medication provided by
NSP as the institution has a “conspiracy against
[him],” a claim he asserted is supported by “seven Senators;” the belief that medications are simply a “band

App. 24
aid;” the prescription of incorrect and unhelpful medications), and asserted that “federal courts would not
allow [involuntary medication].” Throughout the sessions, evaluators asked why Mr. Jenkins requests medication he refuses to take, to which he responded,
“Parts of me want to do the right thing.” However, he
also stated other coping strategies, such as listening to
music and yoga work better than medication, and attributed his religion, which he identified as Hindu, as
a reason for his medication noncompliance.
Throughout the evaluation, Mr. Jenkins frequently
cited case law and statutes he believed relevant to his
case in terms of legal strategies for his court case and
his efforts to obtain a change in placement due to his
claimed mental health issues. Although he frequently
misinterpreted or misapplied legal information, Mr.
Jenkins demonstrated an ability to converse about his
intended legal strategies in a rational and coherent
manner. He acknowledged his lack of willingness to defer to legal counsel was not due to psychotic symptoms
but because of a desire to do things his way to gain a
desired outcome. When asked how he devises legal
strategies, Mr. Jenkins identified using LexisNexis and
law books. Specific to his legal situation, he described
perceived violations of his 6th, 8th, and 14th amendment rights and detailed several strategies he is pursuing to either change his placement, get evidence
suppressed, or have his case dismissed. For example,
he expressed the belief that he could not be held in segregation because he is a “mentally ill” person and discussed his plan to raise that argument in higher

App. 25
courts. Mr. Jenkins identified experts he believed
would testify on his behalf about his mental state,
which would assist his pursuit of various legal efforts
to either be found incompetent, have his conviction
overturned, or be transferred to a mental health facility. Mr. Jenkins identified a statute (28-303) as the first
degree murder statute and repeatedly held up his
hand to display this number tattooed on his “trigger
finger,” asking “That’s original, isn’t it?” During the
April session, Mr. Jenkins indicated that he believed
he will be exonerated due to DNA evidence associated
with bullets found at the crime scene(s), which is the
same argument he submitted in a recent handwritten
motion he sent to the court. Evaluators asked him to
clarify his reasoning for confessing to additional
crimes if his ultimate goal was to be exonerated. He
stated “You’ll see, they won’t charge me. Can’t charge
me off of just a confession,” and made reference to how
the confession of a mentally ill person cannot be used
against them.
While Mr. Jenkins voiced varied complaints about the
judge, his attorneys, and the prosecutors, the crux of
these complaints was that others have acted in ways
he believes are improper, unethical, or illegal. These
complaints extended to the undersigned, whom he
called “unethical and unprofessional,” suggested they
lacked intelligence and minimized his mental illness,
and threatened professional reputations and licenses.
At the beginning of the third session, Mr. Jenkins accused the evaluators of “derailing” and “stalling” due to
fear of testifying.

App. 26
DIAGNOSTIC IMPRESSIONS
Psychosis
Overall, Mr. Jenkins has been inconsistent in his report of psychotic symptoms. Records indicate that Mr.
Jenkins first reported hallucinatory experiences as a
child, but Richard Young providers characterized those
symptoms as reactions to traumatic experiences (i.e.,
nightmares) or real experiences (i.e., older boys who instructed him to steal). The lack of further report of
such symptoms until over a decade later provides credence to that initial conceptualization of those symptoms. As an adult, his self-report has been inconsistent
over time, with the exception of a common theme of
hearing the voices of Apophis and other gods/demons
in recent years. Despite his reports of such symptoms,
there has been no indication that he is responding to
such internal stimuli during any interactions with the
undersigned evaluators. Second, his report of such
symptoms correlates with situations in which there is
the potential for secondary gain. Mr. Jenkins calls attention to these reported symptoms, labels them as
symptoms, requests treatment for them, but then habitually refuses treatments offered. Similarly, he repeatedly has made requests for antipsychotic or mood
stabilizing medication to be prescribed (while noting
that he would not take it if it were prescribed) and for
a diagnosis of Schizoaffective Disorder to be documented, suggesting that he is more interested in how
the documentation can serve his legal interests or how
he could be placed in a less restrictive setting than in
actually receiving treatment.

App. 27
Despite his reported problems with delusions and hallucinations, Mr. Jenkins does not demonstrate a decrease in functional abilities (e.g., hygiene, self-care,
communication, planning) or disorganized thinking, as
would be expected in a person genuinely experiencing
such intrusive symptoms. Furthermore, psychological
test results demonstrated a pattern of responding that
was characteristic of feigning symptoms in 2014
(SIRS-2) and as recently as February 2016 (SIMS). His
current presentation and self-reported symptoms are
remarkably similar to his presentation during the
prior episode of competency restoration, raising the
same concerns about intentional production of symptoms. While Mr. Jenkins reports significant distress, at
times related to his repeated self-harm over the last
year, this distress appears unrelated to psychotic
symptoms, but instead related to secondary gain, personality characteristics, and his use of maladaptive
coping strategies to handle situational stress.
While Mr. Jenkins may hold some overvalued ideas
about idealizing gods and goddesses, these ideas do not
appear delusional in nature. Furthermore, the claimed
rituals related to Apophis in which he reportedly engages (e.g., consumption of body fluids, exercising,
prayer), do not significantly affect his ability to function on a daily basis, and indeed have not affected his
legal strategizing. On the other hand, his seemingly bizarre behaviors do result in secondary gain – some
have psychological benefits, while others have legal
benefits.

App. 28
Mr. Jenkins talks at length about how he perceives he
has been mistreated by his attorneys and others involved with the court system. Although his beliefs may
be inaccurate, they are not based on delusional or
pathological reasoning, but instead based on life experiences colored by his tendency to blame his problems
on external factors. Furthermore, his assertions about
being mistreated by legal counsel and the criminal justice system are not tied to his purported beliefs about
gods, demons, or hallucinatory experiences.
Based on available records, previous psychotic diagnoses seem to be primarily as a result of Mr. Jenkins’ selfreport of hallucinations and delusions as opposed to
objective confirmation of symptoms. In addition, malingering has been questioned for several years. There
is no indication that he has a chronic psychotic disorder, and he does not appear to suffer from psychotic
symptoms at this time.
Mood
Mr. Jenkins does not present with a significant mood
disturbance at this time. Observations suggest that he
demonstrates normal fluctuations in mood, which are
largely related to situational factors. There has been
no indication of manic or hypomanic symptoms during
sessions for the current evaluation. Mr. Jenkins presents as grandiose, although this is a stable characteristic that has not fluctuated for many years and is
indicative of a personality trait. While he has endorsed
“racing thoughts” or “mania,” he generally cannot

App. 29
describe these symptoms. Further, there has been no
objective evidence during the prior course of treatment
with LRC staff (August 2014 – February 2015) or during the current evaluation to suggest he experiences a
pressure to talk, flight of ideas, or thoughts that race
faster than they can be expressed verbally. Although
he attempts to control the direction of conversation
and speaks quickly about statutes, case law, and judicial codes, it is always possible to interrupt him, redirect him, and disrupt his flow of thoughts. There has
been no indication of distractibility; instead, Mr. Jenkins demonstrates a good ability to sustain attention
to matters important to him. Collateral information indicates Mr. Jenkins has maintained a good appetite
and adequate sleep.
Records describe mood fluctuations during his brief
hospitalization at age 8, although the professionals at
Richard Young ultimately conceptualized his difficulties as indicative of anxiety, maladaptive coping strategies, and personality characteristics. Records indicate
Mr. Jenkins reported isolated incidents of difficulty
sleeping on other occasions, although these generally
coincided with situational factors that caused stress.
NDCS records indicate that he discontinued several
sleep studies to confirm and clarify his reports of insomnia after sleeping adequately on the first night of
the studies. NDCS records indicate that he was reported to experience a disruption in sleep in January
2013, although this problem seemingly remitted
within a short time without intervention. NDCS records also note that numerous individuals described

App. 30
him as “hypomanic” at times, highlighting lengthy
monologues, animated behavior, and rapidly shifting
topics. It is possible that, in the past, he may have experienced brief mood disturbances related to situational stressors that remitted without treatment.
However, personality characteristics (most likely borderline or narcissistic traits) could have mimicked, and
in brief interactions easily been mistaken for, hypomanic-like episodes.
Mr. Jenkins did not exhibit symptoms of major depression during the current evaluation. He has maintained
interest in activities that he values (e.g., exercise, reading, legal motions) and has described feeling as if he
has adequate energy to complete tasks and pursue his
priorities. He has engaged in repeated self-harm and
endorsed suicidal ideation over the course of the last
year. Overall, NDCS records suggest that his selfharming behaviors have been largely motivated by attempts to influence the actions of others (e.g., appear
“insane,” obtain food/property, be removed from segregation). It is possible that he has experienced transient
depressive symptoms related to situational factors.
Antisocial Personality Traits
Mr. Jenkins presents with obvious symptoms of Antisocial Personality Disorder, demonstrating a pervasive
pattern of disregard for and violating the rights of others since childhood. The detailed criteria for diagnosis
of this disorder were outlined in the 02/11/2015 report
previously submitted to the court by the undersigned.

App. 31
No changes have occurred in regards to these criteria,
and this disorder remains prevalent and relevant to
his current presentation.
Narcissistic Personality Traits
Mr. Jenkins also demonstrates strong narcissistic
characteristics, also unchanged since the 02/11/2015
report by the undersigned. These traits continue to remain prominent in his presentation and will continue
to adversely affect his interactions with legal counsel
and the court. He maintains a grandiose sense of selfimportance, marked by expectations that others will
recognize his superiority despite the lack of commensurate accomplishments. He frequently talks of being
physically superior and “brilliant,” refers to himself as
a “mastermind,” and consistently brags about ways in
which he intends to ‘one up’ others (e.g., judges, homicide detectives, Corrections’ personnel, LRC professionals). Mr. Jenkins exhibits a sense of entitlement,
often making demands of others or trying to secure
special treatment
Borderline Personality Traits
Mr. Jenkins exhibits traits associated with Borderline
Personality Disorder. He has demonstrated problems
in the way in which he views relationships, at times
ranging between idealizing the other person, while at
other times devaluing that individual. Mr. Jenkins exhibits some characteristics that may be related to identity disturbance, in that at times he talks of wanting to

App. 32
be “good,” although he mostly speaks with reverence
about harming others. It is unclear if this behavior is
related to borderline traits, as his presentation must
be viewed in the light of his attempts at secondary
gain. He has engaged in self-harming behaviors and
endorsed suicidal ideation, which could be indicative of
borderline personality traits. It is also possible that
self-harming behaviors have been motivated by attempts to manipulate others (e.g., demanding moves to
other units/facilities; attempting to appear mentally
ill), and he has made numerous statements giving credence to that possibility. For example, historically he
reported that he “mastermind[ed]” his legal situation
in an attempt to have NDCS held liable for him not
receiving mental health treatment and has commented several times to NDCS staff that he would act
“insane.” Mr. Jenkins’ affect and mood changes only
last for short periods of time, consistent with borderline traits as opposed to a major mood disturbance. In
addition, Mr. Jenkins has presented with significant
anger that is inappropriate to the situation, and at
times, has experienced difficulty controlling his anger.
Lastly, it is possible that as a result of borderline traits,
Mr. Jenkins expresses his distress and anger in a way
that may be interpreted in dramatic/bizarre fashion.
Such experiences would be transient, stress-related
features that fall within the realm of borderline personality disorder experience. These verbalized symptoms have been portrayed by him as psychotic
symptoms in the past.

App. 33
Posttraumatic Stress Disorder
Mr. Jenkins witnessed significant traumatic events as
a young child, raising the question of whether his reaction to such events caused a clinical disturbance,
such as Posttraumatic Stress Disorder (PTSD). As a
child, records indicate that he experienced nightmares
about the family violence he witnessed. However, there
is no information to suggest that Mr. Jenkins experiences symptoms clearly related to PTSD at this time.
DIAGNOSIS
Other Specified Personality Disorder (e.g., Mixed Personality Features – Antisocial, Narcissistic, and
Borderline)
Malingering
Polysubstance Dependence (by history)
History of Posttraumatic Stress Disorder
COMPETENCY-RELATED ABILITIES
With respect to the criteria outlined in State v. Guatney, Mr. Jenkins has demonstrated sufficient mental
capacity to appreciate his presence in relation to time,
place, and things. Mr. Jenkins is able to discuss at
length the prior proceedings in his case, including his
plea of no contest, motions by various parties, and associated rulings. He is aware that he is slated to begin
the sentencing phase, which could include the death
penalty. He understands that he is in a court of law,
convicted of four counts of murder and eight other

App. 34
associated felony charges, and is able to describe the
details of those offenses. He realizes that there is a
Judge on the bench, a prosecutor who will argue for the
death penalty, and defense attorneys who will defend
him. Mr. Jenkins has spoken of a “conspiracy” involving various legal actors, although upon further investigation, this does not comport with paranoia reflective
of a mental illness. Instead, these beliefs are indicative
of his general mistrust of others, which has been validated by his life experiences in which violence was a
frequent occurrence. Mr. Jenkins understands he is expected to tell his lawyers all he knows and remembers
about the events involved in the offenses, although he
has been mostly critical towards legal counsel seemingly as a result of disagreement about legal strategies.
Mr. Jenkins’ conflicts with his attorneys are driven by
his personality characteristics, as opposed to symptoms of a major mental illness. He is aware that a
panel of judicial officers will be present to determine
his sentence in a death penalty hearing. Mr. Jenkins
understands the appellate process, should he be sentenced to death. He has demonstrated sufficient
memory to relate answers to questions posed to him.
Mr. Jenkins is capable of following testimony reasonably well. He is also capable of testifying on his own behalf if necessary, although it should be expected that
he would attempt to dominate court proceedings or insert information that he desired to be heard, even if it
peripherally related to the question at hand.
Mr. Jenkins appears capable of meeting the stresses of
a trial without having a breakdown in rationality or

App. 35
judgment. Over the course of the last year, Mr. Jenkins
has been engaged in weekly individual therapy with
NDCS personnel to target his maladaptive behaviors,
including self-harm, and improve management of
stress. He is able to discuss and implement appropriate strategies for a sustained period of time, indicating
that he is capable of using alternatives to self-harm
and other maladaptive behaviors when he chooses to
do so. Mr. Jenkins’ motivation to comport himself appropriately may wax and wane over time, specifically
if he determines that behaving in a certain manner
(e.g., dramatic behavioral displays) furthers his endeavor to: 1) appear more mentally disturbed than is
the case, 2) draw attention to himself, or 3) give traction to certain legal strategies. It is the opinion of the
undersigned that Mr. Jenkins is capable of maintaining appropriate behavior in court, although he may
choose to engage in disruptive behaviors for one of the
reasons enumerated above. Such behaviors are volitional in nature, and are not due to a major mental illness.
Mr. Jenkins has at least minimum contact with reality
and does not present with disorganized thought processes or significant symptoms indicative of a major
mental illness at this time. His purported delusional
beliefs have no bearing on his legal strategies. The
topic of gods or demons minimally emerged in sessions
(both during the current evaluation and during treatment from 2014 – 2015); instead, he spoke at length
about legal strategies or complaints about what he perceives to be mistreatment by various parties. He has

App. 36
the minimum level of intelligence necessary to grasp
the events taking place. He can confer coherently with
an appreciation of the legal proceedings, as evidenced
by his ability to provide detailed accounts of past hearings. The defendant denied difficulty comprehending
his legal situation or symptomatic interference when
consulting with legal counsel.
Mr. Jenkins repeatedly recounted ways in which he
was unsatisfied with legal counsel. The crux of the disagreement centers on Mr. Jenkins’ desire to pursue arguments based on certain laws and codes that his
attorneys have informed him are not applicable in his
criminal case (e.g., the Mental Health Commitment
Act). There is no indication that his expressed dissatisfaction with legal counsel is related to a mental illness, with the exception of a personality disorder. He
has not developed rapport with legal counsel, although
this is related to his narcissistic view of himself, as he
does not believe that anyone is smarter or savvier than
he. Further, he portrays his disruptive and difficult behavior as a strategy to disrupt the proceedings against
him. As such, he is capable of establishing rapport
should he desire to do so, although his personality style
is such that he is likely to find fault with any strategy
that person(s) should undertake.
Mr. Jenkins appears capable of both giving and receiving advice from his lawyers and assisting in preparation of a rational defense if he chooses to do so. He has
cited several legal standards, statutes, and rights relevant to his case and has identified specific evidence
(e.g., certain mental health records, transcripts from

App. 37
legislative hearings) he believes could be used to support his desired legal strategy in the future. Mr. Jenkins appears to misapply some legal concepts or
misinterpret statutes; however, these errors are not
due to diminished intellectual functioning or symptoms of a major mental illness, such as delusional
thinking. In addition, he is capable of learning new information to correct these errors, although his personality is such that he may have difficulty receiving
feedback from others (including counsel) that is contradictory to his position unless he sees it as his interest to do so. Furthermore, he is likely to find fault, place
blame, and claim ineptitude on the part of others if
they do not provide unconditional acceptance of his
statements or agreement with his desired strategies.
He is able to divulge facts and discuss the ramifications of different strategies without paranoid distress.
He is capable of making simple decisions at this time.
He has demonstrated a desire for justice, rather than
undeserved punishment.
CONCLUSION
Diagnostically, the impression of the undersigned remains unchanged since the 02/15/2015 opinion. Significant characterological problems, namely antisocial,
narcissistic, and borderline traits, remain prominent
and motivate the majority of Mr. Jenkins’ behavior.
Historically, there has been disagreement about
whether Mr. Jenkins has a psychotic or major mood
disorder, or was malingering those symptoms.

App. 38
Collateral records suggest that diagnoses of psychosis
were largely based on Mr. Jenkins’ self-report of hallucinations and delusions. It is the opinion of the undersigned that Mr. Jenkins does not suffer from a
psychotic disorder. Any such reported symptoms (e.g.,
auditory hallucinations) do not comport with what is
known about genuine psychotic symptoms, appear to
be largely contrived, and do not interfere with legal
strategies or day-to-day functioning. NDCS records
from the last year, as well as observations during the
current evaluation, indicate that Mr. Jenkins labels his
purported symptoms without being able to provide actual descriptions of such symptoms as would be expected if they were actually something he had
experienced. He tends to claim hallucinations as an afterthought, and inconsistently attributes his self-harm
to such symptoms, while also making other statements
about being motivated by secondary gain. There has
been no indication of disorganized thought processes
or distraction by internal stimuli during the current
evaluation or documented in NDCS records, with the
exception of a July 2015 Premier Psychiatric Group
note where he was referred to as “grossly psychotic.” At
this time, Mr. Jenkins does not present with symptoms
of a major mood disturbance. There has been no indication of manic or major depressive symptoms during
the current evaluation. At times, he presented as animated, agitated, or irritable, although these expressions were in response to situational factors. At times
he engages in long tirades, although it is not difficult
to re-direct him or stop his flow of thoughts. His commentary about seemingly bizarre behaviors (e.g.,

App. 39
ingesting semen and its effect on neurotransmitters)
appears largely for dramatic effect and in an effort to
shock the listener. His claims about these behaviors being related to mental illness shift when providers attempt to process such activity with him. These
behaviors appear volitional and related to a personality disorder, rather than a mood disturbance.
Mr. Jenkins both highlights what he labels as symptoms and demands treatment to be offered, while at
the same time contradicts his assertions that he is suffering from symptoms by refusing first-line treatment
for his purported problems. An individual who genuinely suffers from such symptoms, and has the insight
that such experiences are symptoms, generally wants
to ease their suffering. This is not true in Mr. Jenkins’
case. Instead, he continually demands certain types of
treatment/placement, but consistently declines to accept treatment offered, variably asserting that external factors (e.g., others’ alleged mistreatment,
placement) have caused his difficulties. Consistent
with his explicit threats about evaluators having negative consequences if they do not provide his requested
diagnosis, his presentation strongly suggests that secondary gain is motivating him to feign symptoms.
Mr. Jenkins’ personality characteristics (antisocial,
narcissistic, and borderline) appear to primarily account for his disruptive behaviors during court proceedings and difficulty communicating with others.
This combination of personality traits, in addition to
feigning of symptoms and lack of cooperation, complicated the diagnostic picture in the past. However, when

App. 40
viewed in light of all the available records, a clear pattern emerges – Mr. Jenkins provides labels of symptoms he asserts he experiences in dramatic fashion,
cannot offer descriptions of his experiences of such
symptoms, makes demands for certain treatments,
bullies or intimidates others to attempt to obtain such
diagnoses/medications/placement recommendations,
then refuses treatment offered. His self-harming behavior has consistently been associated with attempts
to extort certain things from others (e.g., food, recommendation for placement, access to desired items)
and/or anger when his demands are unmet. Although
at times he offers an explanation that he is acting on
commands from Apophis when he self-harms, he contradictorily notes that he would have refrained from
self-harm if his demands had been met (e.g., food/
property). He asserts these incidents cause him to go
into a “psychotic state,” which is not at all reflective of
how psychosis actually manifests and seems to simply
be mislabeling of angry or violent ideation. In addition,
no other markers of a thought disorder, such as disorganized thinking, are present during such claimed episodes, raising further suspicion about the authenticity
of his self-report. Individuals who act upon auditory
hallucinations to engage in such destructive behaviors
would be expected to demonstrate an associated level
of distress (as such symptoms are intrusive and uncomfortable) that is not demonstrated by Mr. Jenkins,
who records describe as relatively calm immediately
before, during, and after such actions. While he appears to have difficulty with frustration tolerance and
impulse control, many – if not all – of his self-harming

App. 41
behaviors had a pre-planned quality (e.g., holding onto
items with which to self-harm for many days before actually acting out). In other words, his behavior and
symptoms displayed are not consistent with a pattern
supportive of a psychotic disorder diagnosis, as the
presentation of the claimed symptoms tend to be opportunistic in nature.
Mr. Jenkins views himself as the victim and externalizes all responsibility for his behavior and circumstances. He holds tightly to this perception and
appears to spend a great amount of time ruminating
about strategies to make others ‘pay’ for how he perceives he has been mistreated, which has generally
been the impetus for his self-harming behaviors and
many of his legal maneuvers (e.g., lawsuits, motions,
and threats to sue). His focus on external factors, including placement, access to property/items, and requests for various treatment, has been consistent for
almost 10 years, although the specific nature of his requests occasionally shift. The constant has been that
he generally is dissatisfied with his treatment and
placement and does not accept requested treatment
when it is provided. Mr. Jenkins does not accept any
personal responsibility in achieving more successful or
personally desirable outcomes, which is a necessary
component for any behavioral change. Psychotherapy,
namely Dialectical Behavior Therapy (DBT – which he
is currently receiving), could assist him in developing
more adaptive skills to manage his emotional distress
and achieve his espoused goals; however, so long as he
maintains his focus on others being responsible for his

App. 42
problems, then he is unlikely to incorporate techniques
that could assist him in adaptively managing his reactions to situations.
To conclude, it is the opinion of the undersigned that
Mr. Jenkins is currently competent to proceed with
sentencing. The defendant has demonstrated an adequate factual understanding of the proceedings. Additionally, Mr. Jenkins has demonstrated the ability to
rationally apply such knowledge to his own case. He
can coherently discuss the proceedings in detail and is
able to extensively describe the purpose of upcoming
hearings and potential legal strategies. Lastly, if he desires to do so, he has the ability to consult with counsel
with a reasonable degree of rational understanding.
Mr. Jenkins is likely to continue to act in ways that
disrupt court proceedings if he perceives it as beneficial to do so. Particularly, each time he approaches sentencing, he is likely to escalate in his disruptive
behaviors (e.g., self-harming, assaultive behavior,
threatening harm to self and others), in an attempt to
thwart the proceedings or appear mentally ill. These
behaviors are largely volitional and related to personality characteristics, as opposed to a major mental illness. He has exhibited the ability to control these
behaviors when he desires or is motivated to do so, as
demonstrated during long stretches of time in which
he abstained from self-harm.
Based on past behaviors and Mr. Jenkins’ sporadic
threats about self-harm and harming others (including
those involved in the legal proceedings), it is strongly

App. 43
recommended that safety precautions be taken in any
setting he may be housed in, during transport to/from
court hearings/appointments, and during court proceedings.
Respectfully submitted,
/s/ Jennifer Cimpl Bohn
Psy.D.
Jennifer Cimpl Bohn,
Psy.D.
Clinical Psychologist
Forensic Mental
Health Services
Lincoln Regional
Center

/s/ Mario J. Scalora
Mario J. Scalora, Ph.D.
Consulting Clinical
Psychologist
Forensic Mental
Health Services
Lincoln Regional
Center

/s/ Chaturvedi, MD
05/10/2016
Rajeev Chaturvedi,
MBBS Psychiatrist
Forensic Mental
Health Services
Lincoln Regional
Center
cc: Donald Kleine
Douglas County Attorney
Thomas Riley
Douglas County Public Defender

•

•

21 (2008)

NDCS

•
•
•
•

20 (2007)

17

Assaultive
Antisocial behavior
No major mental health concerns
Self-report:
○ Depression
○ “Criminally insane”
○ “See[ing] things”
○ Sleep problems
• Refused sleep study
Later, denied mental health concerns
Threats to kill others
Angry about segregation
Self-report:
○ “Rage”
○ Homicidal ideation
○ Segregation made him “very mentally ill” and
likely to kill others when released from prison
○ “Paranoid schizophrenia”
Clinicians note:
○ Reported symptoms were identified as gangrelated paranoia
Prescribed Depakote for 4 days for behavioral problems
○ Meds discontinued due to refusals

• Oppositional Defiant Disorder
• ADHD
• Functional Enuresis

• Conduct problems / Aggression (Threats to harm
others, Arson, Fighting, Killing animals, Family
teaching him to fight, Carrying a gun, Theft)
• Suicidal statements
• Trauma-related symptoms (sleep problems, anxiety,
nightmares)
• Enuresis
• Distractible/Impulsive
None available

• Antisocial Personality Disorder
• No Major Mental Illness,
including psychosis or mood
disturbance

• Conduct Disorder
• Adjustment Disorder,
with Depressed Mood
None

None available

Diagnosis

Summary of Historical Diagnoses

APPENDIX A

Behavioral Observations

Residential substance
abuse treatment facility
Youth Correctional Facil- •
•
ity
•
•
NDCS

13

Defendant’s Provider/Facility
Age (Date)
8 (1995)
Dr. Jane Dahlke /
Richard Young

App. 44

22 (May –
Nov/2009)

22 (May
2009)

22 (JanMar/2009)

NDCS

•
• Self-report:
•
○ “Homicidal maniac”
○ Predicts that NDCS will be held liable when
he kills others when released
○ “Schizophrenia”
○ “Multiple personalities”
○ Sleep problems
• Sleep study showed no problems on
the 1st night; Mr. Jenkins discontinued
the study & stated he did not need
medicine
•
NDCS
• Self-report:
○ 1st report of auditory hallucinations of an
•
“Egyptian god” telling him to kill others
• Clinicians note:
○ Not psychotic, but using the label of hallucinations to disown his homicidal thoughts
○ Seeking attention
○ “More manipulative and criminal than
mentally ill”
1) Dr. Natalie
• Self-report:
1)
Baker/NDCS
○ Hearing voice of Apophis
•
○
Apophis
trying
to
control
him
•
2) Another NDCS
○ Anger
•
Mental Health
○
Nightmares
&
flashbacks
Professional 08/2009
○ Feared being poisoned
•
(documented name illegi○
Sleep
problems
•
ble)
• Sleep study showed no problems on
•
the 1st night; Mr. Jenkins discontinued •
the study
2)
• Threatened to commit suicide (08/2009), but listed •
motivators inconsistently (command hallucinations
v. wanted to move units due to peer conflict)
• Prescribed Risperdal & Depakote for 3 mos., but
questionable adherence (flushing meds, outright
refusal)

App. 45

Other MH Professional
“Manipulative”

Dr. Baker:
Psychosis NOS
Possible Schizoaffective Disorder
Strong Personality Disorder
Traits
Polysubstance Dependence
Probable PTSD
Adjustment Disorder
Rule Out Bipolar v. Schizophrenia

Personality Disorder
No Major Mental Illness

Antisocial Personality Disorder
No Major Mental Illness,
including psychosis or mood
disturbance

• Self-report:
○ “Severe psychosis”
○ “Multiple personalities”
○ Violent ideation
○ States he drinks semen
○ Sleep problems
○ Wrote letters in sideways script, which he
labeled as indicative of the “psychosis state
of schizophrenia”

24-26
NDCS
(July 2011 –
July 2013)

•
•

•

Self-report:
○ “Possessed”
○ “Multiple personalities”
Assaulted officers & attempted to escape while on
a furlough for funeral
Requesting medicine
Dr. Baker revised diagnostic opinion – noting
symptoms were “inconsistent,” and that Mr. Jenkins
appeared to be using symptoms and meds “for secondary gain, including to avoid legal consequences”
Meds discontinued
Self-report:
○ Auditory hallucinations of Apophis
○ “Multiple personalities”
○ Frequent complaints about perceived
mistreatment
Clinicians note:
○ Generally listed as unremarkable mental
status, with exception of talk about harming
others due to Apophis’ directions
○ Anger
○ Grief
Requesting medicine
Prescribed Risperdal & Depakote, but consistently
refused
Competency & insanity evaluations

•

Dr. Eugene
Oliveto/Douglas
County Corrections

23 (Feb
2010 –
July 2011)

•
•

•
•

•

•

23
Dr. Y. Scott Moore
(July 2010)

Dr. Baker/NDCS

23 (Dec
2009 –
Feb 2010)

App. 46

• Antisocial Personality Disorder
• Unlikely to have a Psychotic
Disorder
Mental Illness Review Team:
• Narcissistic & Antisocial
Personality Disorders
• No major mental illness

• Schizoaffective v. Bipolar
Disorder
• PTSD with Dissociative
Episodes
• Possible Dissociative Identity
Disorder
• “Antisocial/Impulsive/
Dangerously Obsessive”

Dr. Baker revised:
• Behavioral/ Personality
Disorder
• Possible Feigning

Dr. Baker/NDCS

26
(Jan –
Feb 2013)
•

•

•

•

•

26
(Apr 2013)

Dr. C.B. Jack/NDCS

•

•
•
•

26
Dr. Martin Wetzel/NDCS •
(Mar 2013)
•

Dr. Baker/NDCS

25
(Apr –
Dec 2012)

App. 47

• Narcissistic & Antisocial
Personality Traits
• Suspected Malingering

• Psychosis NOS
• Antisocial & Narcissistic
Personality Traits
• Possible Bipolar
• Possible Delusional Disorder
• Possible Schizoaffective Disorder
• Possible Malingering
Provider noted that reported psychotic symptoms • Antisocial & Narcissistic
were not typical of psychotic disorder
Personality traits
Provider identified problems with sleep, mood, and • Probable Bipolar NOS
behavior
• Probable PTSD
• Possible Malingering
No requests for treatment
• Antisocial Personality Disorder
No signs of mental illness
with Narcissistic Features
Provider described him as “performing,” and used
v.
session as a “lecture platform”
• Narcissistic Personality DisorReference to his attempt to get a psychiatric diagder with Antisocial Features
nosis so he “could get paid,” seemingly in reference
to disability benefits

○ Referred to presentation of symptoms as
a “skit” in conversations with mother and
girlfriend
Self-report:
○ “Rapid deterioration”
○ “Severe psychological disability”
Self-harming behaviors (wrapped drop chain
around neck, cut face)
○ Listed motivators inconsistently (would act
out or “insane” until his requests were met
v. commands from Apophis/rituals)
Staff observations of anger, agitation, & rapid
speech
Self-harming behavior (cut face)
○ Listed motivators inconsistently (would
stop acting out if had ear buds or paper v.
commands from Apophis/rituals)
Isolated account of not sleeping & exercising naked
at night (Jan 2013)

Staff Observations/
NDCS

26
(June –
July 2013)

26 (Sept 2013 Dr. Oliveto/Douglas
– Apr 2014) County Corrections

Staff observations/
NDCS

26 (spring
2013)

App. 48
• Self-report:
○ “Mentally ill”
○ Threats to kill people when released
○ Requests civil commitment
• Others described as:
○ Intimidating
○ Narcissistic
○ “Hypomanic” (pressured speech, animated,
grandiose)
○ No responding to internal stimuli
○ No disorganized thoughts
• Self-Report:
○ No plans to harm others
○ No commands from or thoughts about
Apophis
○ No mental health symptoms/concerns
• Self-Report:
○ “Legally insane”
○ Possessed
○ Orders from Apophis to kill others (index
offenses)
○ Self-harm statements/ingested hydrocortisone
cream
• Later reported he ingested it to get
out of segregation
• Staff Observations:
○ “Somewhat paranoid,” but “play[ed] up”
symptoms
○ Focused on moving to less restrictive placement & legal concerns
• Prescribed Risperdal (later changed to Seroquel),
Lithium, & Wellbutrin but took for 1 week, then
refused
•
•
•
•

Paranoid Schizophrenia
PTSD
Attention Deficit Disorder
“Narcissistic psychopath with
obsessive delusional thinking”

27
(June 2014)
27 – 28
(Aug 2014 –
Feb 2015)

Drs. Moore &
Klaus Hartmann
Drs. Rajeev Chaturvedi,
Jennifer Cimpl,
Mario Scalora
(undersigned)/
LRC professionals/
NDCS placement

27
Dr. Gutnik
(May 2014)

• Competency evaluation

27
Dr. Y. Scott Moore
(Dec 2013)
27
Dr. Gutnik
(Feb 2014)
27
NDCS
(May – July
2014)

• Schizoaffective Disorder,
Bipolar Type
• Rule Out Other Specified
Personality Disorder (Cluster B
and Obsessive/Compulsive
Features)
• Malingering

• Schizophrenia
• Rule Out Schizophrenia Disorder
• Rule Out Other Specified
Personality Disorder (Cluster B
and Obsessive/Compulsive
Features)
• Malingering
• Antisocial Personality Disorder
• Schizophrenia Disorder,
Bipolar Type
• Not available

• Competency Restoration Treatment
• Other Specified Personality
• Reports of psychotic & major mood symptoms
Disorder (Antisocial,
inconsistent with observations
Narcissistic, & Borderline
• Frequent complaints about treatment & placement
Traits)
• Prescribed Zoloft & Inderal for situational stress, • Malingering
anxiety, & agitation, but consistently refused
• History of PTSD

• Competency evaluation

• Self-report
○ Psychotic during self-harm
○ Threats to self-harm
• Staff Observations:
○ No indication of psychotic or major mood
symptoms
○ Self-harming behaviors
○ Behavioral issues (e.g., broke sprinkler,
barricaded self )
• Prescribed Seroquel (at LCC), but mostly refused
• Competency evaluation

• Insanity evaluation

• Competency evaluation

27
Dr. Bruce Gutnik
(Nov 2013)

App. 49

29
Randi Nielsen
(Oct 2015 – APRN/Kelsie Morgan
Mar 2016 PA-C/Premier
Psychiatric Group
•

•
•

•

•
•

28
Dr. Tayo Obatusin/
(Apr – Aug Premier Psychiatric
2015)
Group

• Schizoaffective Disorder,
Bipolar Type
• Rule Out Other Specified
Personality Disorder (Cluster B
and Obsessive/Compulsive
Features)
Details in narrative below
• Schizoaffective Disorder,
Self-harming, but attributed to attempts to be
Bipolar Type
removed from segregation
• Antisocial Personality
Prescribed antipsychotic and mood stabilizing
Disorder
medication, but refused
• Narcissistic Personality
Disorder
• Borderline Personality
Disorder
Details in narrative below
• Unspecified Depressive
Self-harming, but did not appear to be impulsive
Disorder
and more indicative of attempts at secondary gain
○ Noted as needed to
(e.g., “paper trail,” obtain access to desired items)
be Ruled Out in
Prescribed antidepressant, but generally refused
March 2016
• Antisocial Personality
Disorder
• Narcissistic Personality
Disorder
• Borderline Personality
Disorder
• Possible Malingering
(Mar 2016)

• Competency evaluation

28 – 29
Dr. Gutnik
(May & Dec
2015)

App. 50

